WAIVER

SUPREME COURT OF THE UNITED STATES

No. (21-5388

Wilbert Kelly, Jr. Louisiana
(Petitioner) v. (Respondent)

1 DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested by
the Court.

Please check the appropriate box:
© Lam filing this waiver on behalf of all respondents.

oO T only represent some respondents. I am filing this waiver on behalf of the following respondent(s):

Please check the appropriate box:

Tama member of the Bar of the Supreme Court of the United States. (Filing Instructions: File a
signed Waiver in the Supreme Court Electronic Filing System. The system will prompt you to enter
your appearance first.)

[am not presently a member of the Bar of this Court. Should a response be requested, the response

will be filed by a Bar member. (Filing [nstructions; Mail the original signed form to: Supreme Court
Attn: Clerk's Office, 1 First Street, NE, Washington, D.C, 20543).

Signature: plex. h ehh.

Date: 9/17/21

(Type or print) Name Shae McPhee

© wm. O Ms. © Mrs. © Miss
Pum Louisiana Department of Justice
Address 1885 N. Third Street
City & State — Baton Rouge, LA Zip 70802
Phone 225-938-0779 Email mcphees@ag. louisiana.gov

A copy of this form must be sent to petitioner's counsel or to petitioner if pro se. Please dicate below the
name(s) of the recipient(s) of a copy of this form. No additional certificate of service or caver letter is required.

|Wilbert Kelly, Jr., #486080
ce:
